    AUDIT REPORT

U.S. Fish and Wildlife Service
  Federal Assistance Grants
 Administered by the State of
Utah, Department of Natural
Resources, Division of Wildlife
Resources, from July 1, 2001,
           through
        June 30, 2003




   Report No. R-GR-FWS-0028-2003

                          July 2004
               U
               Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                        Deeppaarrttm
                          OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                          July 9, 2004


                                     AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on U.S. Fish and Wildlife Service Federal Assistance Grants
           Administered by the State of Utah, Department of Natural Resources, Division of
           Wildlife Resources, from July 1, 2001, through June 30, 2003
           (No. R-GR-FWS-0028-2003)

        This report presents the results of our audit of Federal Assistance grants to the State of
Utah, Department of Natural Resources, Division of Wildlife Resources (Division), under
Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS). The audit included
claims totaling approximately $25.2 million on FWS grants that were open and $44 million in
license fees collected and expended during the State’s fiscal years ended June 30, 2002 and 2003
(see Appendix 1).

        We found that the Utah Division of Wildlife Resources (Division):

           ¾ did not inform FWS of its inventory of unused chemicals purchased from a prior
             grant,
           ¾ did not have a complete inventory of Division properties,
           ¾ charged unallowable work to a fisheries grant,
           ¾ did not have a current and complete inventory listing of lands that identified the
             sources of acquisition funding, and
           ¾ did not comply with requirements to encourage small, women-owned and
             minority-owned businesses to submit proposals for materials and services.

       The Division and FWS responded to a draft of this report on May 18, 2004. We
considered the responses and, as a result, made changes to clarify issues and correct inaccuracies.
We summarized the Division’s and the FWS’ responses after our recommendations. We also
added our comments regarding what changes we made as a result of the responses.
        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response to the recommendations included in this report by October11, 2004. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation. If you have any questions regarding this report,
please contact me at (703) 487-5345 or Mr. Tom Nadsady, Audit Team Leader, at (916) 212-
4164.
        .
cc: Regional Director, Region 6
       U.S. Fish and Wildlife Service




                                                2
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife programs. The Acts provide for FWS to reimburse the states up to 75 percent
of the eligible costs incurred under the grants. They also specify that state hunting and fishing
license revenues cannot be used for any purpose other than the administration of the state’s fish
and game agencies.

Scope, Objective, and Methodology

We performed our audit at the Utah Division of Wildlife Resources (Division) headquarters in
Salt Lake City, Utah. We also visited the Egan and Springville hatcheries, several regional
offices, waterfowl management areas, and the Lee Kay Center for Hunter Education (see
Appendix 2). The objective of our audit was to evaluate:

               ¾ the adequacy of the Division’s accounting system and related internal controls
                 and the reliability of the Division’s hunting and fishing license fee collection and
                 disbursement process;
               ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                 Federal Assistance grant agreements with FWS;
               ¾ the adequacy of the Division’s asset management system and related internal
                 controls with regard to purchasing, maintenance, control, and disposal; and
               ¾ the adequacy of the Division’s compliance with the Acts’ assent legislation
                 requirements.

The audit also included an analysis of other issues considered sensitive and/or significant by
FWS. We relied on the work of other auditors, including the work of the Utah Single Audit
Report auditors, to the extent possible, to avoid a duplication of effort. We did not evaluate the
economy, efficiency, and effectiveness of the Division’s operations.

We performed our audit in accordance with the government auditing standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances, including a
review of other issues considered sensitive and/or significant by the FWS. Our tests included an
examination of evidence supporting selected expenditures charged by the Division to the grants,
interviews with employees to ensure that all personnel costs charged to the grants were
allowable, and a review of the Division’s use of fishing and hunting license revenues to
determine whether the revenues had been used for program purposes.


1
    As amended, 16 U.S.C. 669 and 16 U.S.C. 777, respectively.


                                                         3
Prior Audit Coverage
In November 1998, we issued audit report No. 99-E-76, “Audit of U.S. Fish and Wildlife Service
Federal Aid Grants to the State of Utah Department of Natural Resources, Division of Wildlife
Resources for the Fiscal Years Ended June 30, 1995, and 1996.” In addition, the Utah State
Auditor’s Office issued eight audit reports and three management letters during the last 5 years
on internal controls, the administration of Federal programs, and other aspects of the Department
of Natural Resources.

We reviewed these reports and followed up on all significant findings to determine whether they
had been resolved prior to our review. We concluded that three findings from our 1998 report
had not been addressed satisfactorily and included them in this report: the charging of payroll
costs, the land inventory system, and the promotion of minority and women owned businesses in
requests for proposals.




                                               4
                                   Results of Audit
Our audit disclosed that:

           ¾ the Division’s accounting system and related internal controls adequately and
             accurately accounted for grant and license fee receipts and disbursements;
           ¾ direct and indirect costs claimed under the Federal Assistance grants agreements
             with FWS were adequately recorded and supported;
           ¾ the asset management system accurately identified and tracked personal and real
             property with regard to acquisition, maintenance, control, and disposal, except for
             the issues identified in findings A, B, D, and E below; and
           ¾ the State had adequate assent legislation.

However, we found that:

           A. The Division did not know that it had 169 barrels of rotenone on hand valued in
              excess of $60,000. The rotenone was not needed for its intended use, the
              chemical treatment of Otter Creek for unwanted species.
           B. Buildings were omitted from the fixed asset list, custodial assignments of property
              were not current, and all personal property was not correctly tagged as either State
              funded or Federal Assistance funded.
           C. A sport fish supervisor’s salary and benefits were charged to a fish management
              grant while he was working on unallowable activities.
           D. The Division had not implemented a prior audit recommendation to maintain a
              single complete inventory system that could identify the Federal grantor agency’s
              equity in real estate purchased with Federal Assistance funds.
           E. The Division had not implemented a prior audit recommendation concerning the
              promotion of small, women-owned and minority-owned businesses in requests for
              proposals.



A. Chemicals
We found that the Division had a considerable amount of rotenone, purchased with Dingell-
Johnson Sport Fish Restoration Act and State license funds, on hand for which it had not notified
the FWS. Rotenone was purchased under Grant No. F-70-D-2 in Calendar Year 2000 in order to
chemically kill all fish in Otter Creek Reservoir. We found 152 barrels of rotenone powder at
the time of the audit, with an estimated value of $60,000. The Division later performed an
inventory and found 169 barrels of rotenone on hand. Division officials had informed FWS
about the reservoir draining as the reason they did not consume the rotenone at the completion of
the grant, and that it would be used on future approved projects. However, they did not have any
records to support the unused quantities in storage, which we believed were material in cost and
posed a potential risk to animals and a potential risk of liability to the Division due to the
possibility of misuse or mishandling.



                                                5
The Code of Federal Regulation at 43 CFR § 12.73(b) states “If there is a residual inventory of
unused supplies exceeding $5,000 in total aggregate fair market value upon termination or
completion of the award, and if the supplies are not needed for any other federally sponsored
programs or projects, the grantee or subgrantee shall compensate the awarding agency for its
share.”

         Recommendation
         We recommend that the FWS determine whether the supply of rotenone is needed for any
         other Federally sponsored programs or projects; and, if not, direct the Division to
         eliminate the inventory of rotenone and either reimburse the FWS for its share of the
         proceeds or charge the FWS for its share of the costs of its disposal.

         Division Response
         The Division disagreed with the finding as presented in the draft audit report. However,
         it confirmed the rotenone is needed for future Federally sponsored programs or projects,
         and provided a schedule to show total rotenone quantities purchased, amount used to date
         and remaining balance in storage. The Division stated the rotenone inventory is located
         in a locked storage area and poses no risk to misuse or mishandling.

         FWS Response
         The FWS concurred with the finding and the Division response and suggested this
         finding be deleted from the report.

         Office of Inspector General Comments
         We consider the Division’s actions to locate all rotenone and properly account for it as a
         proper first step. The Division has a material amount ($60,000) of supplies that must be
         used on Federally sponsored projects or sold and their value reimbursed to the grant. The
         next step requires a plan to use the chemical in a reasonable amount of time on proper,
         approved projects, or the sale of the chemical and the crediting of the proceeds to the
         grant. The Division and the FWS should reconsider their responses and provide a plan
         for using the rotenone in a reasonable period or the Division should sell its rotenone
         inventory and credit the proceeds from the sale to Grant F-70-D-2. We consider the
         finding unresolved and the recommendation unimplemented.

B. Asset Management
We found that the Division did not adequately manage personal and real property. We found the
following issues at locations we visited:

     •    Eleven buildings at the Ogden Bay Waterfowl Management Area, acquired with license
          funds, where not on the State fixed asset inventory listing.




                                                 6
     •   Backpack mounted, electro-fishing devices assigned to the Northeast and Central
         regional offices were switched on the asset inventory listing.

     •   No reassignment of fixed assets and personal property took place from the manager
         who retired on Jan. 3, 2003, to the current manager at Springville Hatchery. (Records
         were not available to determine whether the real property assets were purchased with
         Federal Assistance funds, but records indicated that all of the personal property assets
         were purchased with Federal Assistance funds.)

     •   No reassignment of personal property assigned to a biologist took place before or after
         he was transferred from the Northern Regional Office on October 12, 2002, to the Salt
         Lake Office. (The biologist was custodian for 56 items, all purchased with Federal
         Assistance funds.)

     •   There was no property tag on an electro-fishing boat located at the Central Regional
         Office. (The source of funds for the purchase was not known.)

The following Federal and State regulations provide guidance for the management of real and
personal property:

     •   43 CFR § 12.72 (b) states “A state will use, manage, and dispose of equipment acquired
         under a grant by the state in accordance with state laws and procedures.”

     •   State of Utah Financial Accounting Policies and Procedures Manual (FIACCT) 09-
         15.00 states “Assets purchased with federal funds and/or owned by the federal
         government entrusted to state agencies must be identified and safeguarded as federal
         property.”

     •   FIACCT 09-00.00 states “All fixed assets as defined by this policy are required to be
         inventoried by the owner agency a minimum of once every fiscal year.” And it defines
         fixed assets as “Assets acquired for use in operations which are not for resale or
         investment purposes and have a useful life greater than one year and cost $5,000 or
         more.”

     •   FIACCT 09-16.02 states “Agencies should physically locate each fixed asset listed on
         the report and verify that the tag number on the asset agrees to the Fixed Asset Number
         on the report. Other information on the report such as custodian, location, description,
         etc., should also be verified.”

The errors and omissions listed above were the result of either Salt Lake City headquarters or
field office personnel who did not adequately update their management information systems.
Hatcheries’ assets were managed from headquarters. Accordingly, headquarters personnel
should have updated the management information systems related to the hatchery inventory
records.




                                                7
       Recommendations
       We recommend that FWS require the Division to:

       1. Determine which buildings warrant inclusion on the fixed asset inventory list and
          make sure that they are included on the list.

       2. Ensure that all property is located in the same place as the assigned custodian.

       3. Ensure that all personal property is correctly tagged and identified as either Federal
          Assistance, license fee, or other on the personal and real property inventories.

       Division Response

       The Division stated that it concurred with the finding as presented in the draft report.
       The Division stated it would add omitted items to the new state fixed asset system and
       update the assignable asset system for personal property.

       FWS Response
       The FWS stated that it would address the Division response in the corrective action plan.

       Office of Inspector General Comments
       We consider the Division’s proposed action to be appropriate. FWS should address the
       finding and recommendation in the corrective action plan.

C. Payroll
The Division did not ensure that an aquatics program regional manager’s salary and fringe
benefits were reported in accordance with actual work performed. The manager charged a
majority of his time to Grant No. F-44-R-23, Fish Management. However, we found that for a
significant amount of his time (between 25 to 43 hours), he was working on non-fish
management activities. These activities included working on a resume, a job application, and on
endangered species activities during State fiscal year 2003.

OMB Circular A-87 Attachment A item C.3.a states “A cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such a cost objective
in accordance with relative benefits received.”

A similar finding was reported in the prior audit report. The Division agreed with the prior
finding and took action to prevent its reoccurrence. Considering the size of the grant and that
this was the only instance found, the questioned costs would not be material. However, it is a
continuing issue, which indicates that the Division should continue to inform and monitor
employee time charging practices.




                                                 8
         Recommendation
         We recommend that the FWS require the Division to inform its staff of prescribed time
         charging practices and continue to monitor the activities of staff and the proper recording
         of time charges.

         Division Response
         The Division concurred with the finding. The Division stated it regularly provides
         employees training on costs allowable to Federal Assistance grants and agreed to provide
         additional training efforts to the responsible employee and his supervisor to increase their
         awareness of eligible grant activities.

         FWS Response
         The FWS stated it would address the Division response in their corrective action plan.

         Office of Inspector General Comments
         We consider the Division’s proposed action to be appropriate. FWS should address the
         finding and recommendation in the corrective action plan.

D. Land Inventory System
We found that the Division had not implemented the prior audit finding that stated “UDWR’s
[Utah Division of Wildlife Resources’] official real estate inventory system does not identify the
Federal grantor agency’s equity in real estate purchased with Federal Aid funds. UDWR’s
Federal Aid coordinator maintains a separate inventory system that identifies the Federal grantor
agency, but not the level of Federal participation or program that provided the funding.”

We expanded this finding because we found that the Division did not have a complete inventory
of land that identified the sources of funding as Federal Assistance, license fees, or other. The
Division had two lists of Federal Assistance property. We compared the lists. We found that the
lists were not in agreement and neither one included recent acquisitions.

The State of Utah Financial Accounting Policies and Procedures Manual offers general
guidelines for the management of fixed assets, as follows:

     •    FIACCT 09-16.00 item C states “Each agency will maintain an inventory control list on
          FINET Fixed Assets of all fixed assets that cost $5,000 or more.”

     •    FIACCT 09-15.00 states “Assets purchased with federal funds and/or owned by the
          federal government entrusted to state agencies must be identified and safeguarded as
          federal property.”




                                                  9
Division officials stated that FINET, the State’s accounting software, does not have the
capability to manage the detail required for Federal Assistance purposes; so a separate database
system is required.

The Division’s response to this finding in the prior audit was that “Concerns expressed regarding
the real estate inventory system do not accurately reflect the efforts of UDWR. The official real
estate inventory database and the Coordinator’s informal spreadsheet inventory both identify the
Federal Aid grant and segment number applicable to the acquisition.” The response continued to
explain the purpose of the segment number and concluded with, “A revised official real estate
inventory software program is now being developed which will explicitly state Sport Fish or
Wildlife Restoration Program participation by percentage.”

We found that the intended replacement system was not completed due to the departure of a key
employee. The Division was in the process of building a new database system to integrate both
existing systems and to bring one system up to date.

       Recommendation
       We recommend that the FWS monitor the development of the Division’s new database
       system.

       Division Response
       The Division did not concur with part of this finding because it has a manual system
       which documents all land purchases and the source of funds for the purchase. This was
       the main issue of the prior audit report finding. However, the Division concurred that it
       needed to develop a single land inventory system that would account for all of its land
       purchases and identify the source of funding for each acquisition.

       FWS Response
       The FWS agreed with the Division and suggested this finding be deleted from the report.

       Office of Inspector General Comments
       As a result of the comments, we modified our recommendation from FWS requiring a
       new system to FWS monitoring the work that the Division is doing to build a new
       database system.

E. Small, Women-Owned and Minority Businesses
We found that the Division did not implement a prior audit finding concerning the promotion of
small, women-owned and minority-owned businesses in requests for proposals.

48 CFR § 19.201 General policy (a) states that it is the policy of the Government to provide
maximum practicable opportunities in its acquisitions to small business, veteran-owned small



                                               10
business, service-disabled veteran-owned small business, HUBZone small business, small
disadvantaged business, and women-owned small business concerns.

The Division agreed with the prior finding and planned to modify its procedures, but
inadvertently failed to follow through on the corrective action.

       Recommendation
       We recommend that FWS work with the Division to enable it to solicit for the
       procurement of goods and services from small and women-owned businesses.

       Division Response
       The Division concurred with this finding. The Division stated it would coordinate
       corrective action with the State Division of Purchasing to add the appropriate language to
       future purchase requisitions.

       FWS Response
       The FWS stated it would address the Division response in their corrective action plan.

       Office of Inspector General Comments
       We consider the Division’s proposed action to be appropriate. FWS should address the
       finding and recommendation in the corrective action plan.




                                               11
                                          Appendix 1
                                          Page 1 of 2

   UTAH DEPARTMENT OF NATURAL RESOURCES
       DIVISION OF WILDLIFE RESOURCES
   FINANCIAL SUMMARY OF REVIEW COVERAGE

Grant          Budgeted Grant       Incurred
Number             Amount              Costs

W-65-M-49           $2,012,784     $1,661,117
W-65-M-50            3,694,556      3,680,975
W-65-M-51            3,735,510      1,846,762
W-82-R-46              223,190        227,731
W-82-R-47              467,832        449,128
W-82-R-48              470,459        194,262
W-120-E-25             444,440        646,394
W-120-E-26             474,233        669,167
W-135-R-21             323,188        269,736
W-143-E-13              50,000         49,765
W-143-E-14              13,912         19,451
W-150-R-10             274,468        223,385
W-159-E-1              100,000         29,977
W-160-L-1              792,143        593,285
F-35-M-2               403,620        403,620
F-44-R-22            2,492,384      2,442,083
F-44-R-23            2,518,492      2,556,281
F-47-R-16              240,001        222,173
F-47-R-17              240,696        240,940
F-47-R-18              235,266         75,402
F-57-L-19            1,500,000      1,677,832
F-61-D-6                94,000        108,239
F-63-B-18               82,400         61,726
F-63-B-19               82,280         49,817
F-65-T-12                4,800          4,456
F-74-R-12              831,736        718,054
F-74-R-13              804,420        687,125
F-76-D-3                12,180          8,046
F-84-M-11            1,550,912      1,195,870
F-84-M-12            2,009,087      1,491,710
F-87-D-2                17,920         15,642
F-90-T-9               107,104         83,825
F-90-T-10              104,056         74,073




                      12
                                       Appendix 1
                                       Page 2 of 2


Grant        Budgeted Grant     Incurred
Number           Amount            Costs

F-95-R-8              20,000       20,000
F-98-B-20            117,220      120,058
F-98-B-21            158,288      140,098
F-98-B-22             43,800       32,824
F-98-B-23            328,800      229,889
F-98-B-24            153,612      143,753
F-98-B-25             40,000       65,312
F-98-B-26             80,028            0
F-98-B-27             92,000       91,982
F-98-B-28            236,420       41,058
F-98-B-29            226,108      226,107
F-98-B-30            351,800            0
F-98-B-31            101,888       76,415
F-98-B-32             60,000            0
F-98-B-33            140,000            0
F-98-B-34             40,000            0
F-98-B-35            218,224            0
F-98-B-36             54,936            0
F-98-B-38             43,800            0
F-98-B-39             29,000            0
F-98-B-40             68,712       35,546
F-100-D-1            291,500      297,230
F-100-D-2            306,460      210,204
F-100-D-3             52,000       67,065
FW-16-C-61           282,598      253,456
FW-16-C-62           272,256      272,220
FW-16-C-63           268,579      161,389

 Totals          $30,486,098   $25,162,655




                    13
                                                                       Appendix 2

             UTAH DEPARTMENT OF NATURAL RESOURCES
                 DIVISION OF WILDLIFE RESOURCES
                           SITES VISITED


Office                                                     Location

Headquarters Office                                        Salt Lake City, UT

Southern Regional Office, Aquatics and Wildlife Sections   Cedar City, UT

Egan Hatchery                                              Bicknell, UT

Springville Hatchery                                       Springville, UT

Central Regional Office, Aquatics Section                  Springville, UT

Southeast Regional Office, Aquatics Section                Price, UT

Farmington Waterfowl Management Area                       Farmington, UT

Salt Creek Waterfowl Management Area                       Tremonton, UT

Ogden Bay Waterfowl Management Area                        Hooper, UT

Northern Regional Office, Aquatics Section                 Ogden, UT

Lee Kay Center For Hunter Education                        Salt Lake City, UT




                                              14
                                                                              Appendix 3

                           STATUS OF AUDIT FINDINGS
                            AND RECOMMENDATIONS


 Recommendation                  Status                    Action Required

A, B1, B2, B3, C, D, and   Finding Unresolved    Provide a response to each finding and
E                          and Recommendations   recommendation that states concurrence
                           Unimplemented         or non-concurrence. Provide a corrective
                                                 action plan that includes the target date
                                                 and the official responsible for
                                                 implementation of the recommendation or
                                                 an alternative solution. Unresolved
                                                 findings and unimplemented
                                                 recommendations remaining at the end of
                                                 90 days (after October 11, 2004) will be
                                                 referred to the Assistant Secretary of PMB
                                                 for resolution and/or tracking of
                           .                     implementation.




                                          15
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
